No. 19-104

3n®l)e

Supreme Court of tf)t ®ntteb ££>tat
FLAVIO TAMEZ,
Petitioner,
v.
UNITED STATES.
Respondent.

On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Fifth Circuit

PETITION FOR REHEARING

Jose Luis Ramos
937 S. Ramos Lane
Hebbronville, TX 78361
(956) 227-0493
jlramos@yahoo. com

Jaime Omar Garza
Counsel of Record
111S. Seguin Street
San Diego, TX 78384
(361) 279-8251
garzylvania@rocketmail.com

Attorneys for Petitioner

Received
OCT 2 4 2019

jssmsgfi

1
PETITION FOR REHEARING
Pursuant to Rule 44 of this Court, Flavio Tamez,
hereby respectfully petitions for rehearing of this case.
On Monday, October 7, 2019, this Court denied
Flavio Tamez’s Petition for a Writ of Certiorari (“Pet.”).
The questions presented, Pet. at i-ii, are not appropri­
ate for this Court’s argument calendar.
However, for the following reasons, Petitioner sub­
mits that this Court should consider, in the interest of
justice, exercising its supervisory authority to reverse
the denial of a certificate of appealability (COA), re­
manding this case to the Fifth Circuit for further pro­
ceedings.
I.
1. This Court will summarily dispose of a case
where a court of appeals has “departed from the ac­
cepted and usual course ofjudicial proceedings or sanc­
tioned such a departure by a lower court.” S. Ct. Rule
10(a). See also Tolan v. Cotton, 572 U.S. 650, 659-60
(2014) (discussing standard for summary reversal).
In this case, the only court to articulate a reasoned
decision was the district court. Pet. App. 13. That “rea­
soning” was so bad, however, that no competent jurist
could imagine that it was correct. See id., at 21-22. The
Fifth Circuit’s unexplained denial of a COA simply
rubber-stamped the district court’s lawless opinion,
making it their own. Pet. App. 1-3.

2
The remedy for a district court that refused to fol­
low the law is reversal on appeal. What remedy is ap­
propriate for a court of appeals that abdicates its
obligation to reverse lawless decisions?
II.
2. This case arises from Petitioner’s motion un­
der 28 U.S.C. § 2255 raising claims of ineffective as­
sistance of counsel. Pet. at 12-13. Petitioner’s earlier
attempt at a direct appeal had been dismissed on the
government’s motion to enforce a plea-agreement
waiver. Pet. at 10-11.
But there was, in fact, no operative waiver — the
plea agreement had been dissolved prior to sentencing,
and the government itself had previously acknowl­
edged Petitioner’s right to appeal. Pet. at 6-10; cf.
Munoz-Vargas v. United States, Civ. No. B:14-48, Crim.
No. 11-966-1, 2016 U.S. Dist. LEXIS 58104 (S.D.Tex.
Mar. 24, 2016) (allowing § 2255 claims to proceed in
identical circumstances).
Petitioner’s appellate counsel was served with a
copy of the government’s motion to dismiss the appeal
and was notified by the clerk of the circuit court of the
requirement of an answer within 10 days. Yet, counsel
for Petitioner simply did nothing to oppose the govern­
ment’s motion to dismiss the appeal, and it was
granted by default in a 13-word per curiam order. Pet.
at 11-12.

3
III.
3. On September 26, 2017, the district court dis­
missed Petitioner’s § 2255 motion as barred by a
waiver that did not exist. Although Petitioner’s habeas
motion had expressly alleged the invalidation of the
waiver due to ineffective assistance of counsel, the dis­
trict court invoked the “law of the case doctrine” to hold
that Petitioner could not collaterally attack the failure
of appellate counsel - on the premise that the Fifth
Circuit’s order granting the government’s motion to
dismiss the direct appeal “implicitly” compelled the op­
posite conclusion. Pet. at 12-14; Pet. App. 20-21.
The “law of the case doctrine” is flexible and sub­
ject to exceptions, including where substantially differ­
ent evidence is presented, where the prior decision was
clearly erroneous, or where it would work a manifest
injustice. See Pet. at 17-19. See also Bravo-Fernandez
v. United States, 196 L.Ed.2d 242, 247-49 (2010) (issue
preclusion generally inapplicable in circumstances
lacking an “underlying confidence that the result
achieved in the initial litigation was substantially cor­
rect”).
All of that aside, the doctrine is simply not appli­
cable to block review of a § 2255 movant’s claim of in­
effective assistance of counsel. See, e.g., Fay v. Noia,
372 U.S. 391, 423 (1963) (“res judicata is inapplicable
in habeas proceedings”). If the fact that there is a final
judgment is enough to defeat Petitioner’s § 2255 mo­
tion at the outset, then collateral review under § 2255
does not exist; in effect, the action of the district court

4
here unconstitutionally suspends the writ of habeas
corpus. Cf. U.S. Const., Article I, § 9.
IV.
4. “[A]n ineffective-assistance-of-counsel claim
may be brought in a collateral proceeding under
§ 2255, whether or not the petitioner could have raised
the claim on direct appeal.” Massaro v. United States,
538 U.S. 500, 504 (2003). Indeed, the district court is
“the forum best suited to developing the facts neces­
sary to determining the adequacy of representation”
because such a collateral proceeding affords “a full op­
portunity” to create “a factual record bearing precisely
on the issue,” id. at 505-06.
Despite the unquestionable (and uncontested)
multiple acts of negligence and ineffective assistance
from the appellate counsel, the district court denied
Tame/’ habeas petition and denied him a certificate
of appealability. Tamez petitioned the U.S. Court of
Appeals for the Fifth Circuit to issue a certificate of
appealability, but that court denied his request cor­
rectly reciting the standards articulated in 28 U.S.C.
§ 2253(c)(2) and Slack v. McDaniel, 529 U.S. 473, 484
(2000), but holding that he had not made the “required
showing.”
In the district court’s view, the “law of the case
doctrine” is so powerful that it precludes the court’s
looking past a debatable (if not clearly erroneous) con­
clusion “inferred from” the appellate dismissal order
to evaluate the facts under the applicable law

5
Petitioner’s appellate loss cannot destroy his ability to
assert that, had his lawyer filed something - indeed,
nearly anything at all - to rebut the government’s dis­
missal motion, the outcome would have been different.
Petitioner’s pro se § 2255 motion was timely filed,
and of course it was intended to attack a “final judg­
ment.” Even if the appellate dismissal order were to
“imply” the existence of a material waiver, Petitioner
should still have the right to judicial review of his
Sixth Amendment claims. Foreclosure of his one and
only bite at the postconviction apple in this manner,
and by such circular logic, should not be allowed to
stand. Cf. McGee v. McFadden, No. 18-7277, 139 S.Ct.
2608, 2608 (2019) (Sotomayor, J., dissenting from de­
nial of certiorari, and discussing ease with which
“hasty” COA review results in miscarriages of justice).
It must be noted also that while this matter was
on appeal, the Justice Department issued a memo­
randum directing a uniform policy change relating
to waivers of claims of ineffective assistance. On
10/4/2014, all federal prosecutors were advised that
they should no longer include provisions in plea
agreements that ask criminal defendants to waive
claims of ineffectiveness of counsel, regardless of when
the claims are raised. See https://www.justice.gov/
file/70111/download. The memorandum specifically
stated that “For cases in which a defendant’s ineffec­
tive assistance claim would be barred by a previously
executed waiver, prosecutors should decline to enforce
the waiver when defense counsel rendered ineffec­
tive assistance resulting in prejudice or when the

6
defendant’s ineffective assistance claim raises a seri­
ous debatable issue that a court should resolve.” This
procedure was apparently not followed in this cause.
V.
5. The district court’s blind deference to Peti­
tioner’s “final judgment” to foreclose consideration of
his § 2255 motion, relying on the “law of the case doc­
trine,” was so wrong that no jurist could reasonably ar­
gue otherwise. The Fifth Circuit’s rubber-stamp
affirmation of that decision plainly ignored this Court’s
COA standard, working a gross injustice. Cf. Miller-El
v. Cockrell, 537 U.S. 322, 327 (2003) (setting legal
standard applicable to COA review).
Under-these - clear, circumstances, this..Court
should summarily reverse the denial of a COA and re­
mand this case to the court below for further proceed­
ings consistent with the Miller-El standard.
Respectfully submitted,
Jaime Omar Garza
111S. Seguin Street
San Diego, TX 78384
(361) 279-8251
garzylvania@rocketmail.com
Counsel of Record for Flauio Tamez

7
CERTIFICATE OF COUNSEL
Pursuant to Rule 44, Rules of the Supreme Court,
counsel hereby certifies that this petition for rehearing
is restricted to the grounds specified in Rule 44, para­
graph 2, Rules of the Supreme Court, and is being pre­
sented in good faith and not for delay.

Jaime Omar Garza
111S. Seguin Street
San Diego, TX 78384
(361)279-8251
garzylvania@rocketmail. com
Counsel of Record for Flauio Tamez

